NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2021
DERRICK BAER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

CERTIFICATION OF SERVICE

Timothy M. Donohue, Esq., a member of the Supreme Court of United States
and appointed under the Criminal Justice Act, U.S.C. § 3006A et seq., certifies that,
pursuant to the Supreme Court of the United States Rule 29.5, he served the original
and ten (10) copies of the within Petition for Writ of Certiorari, Appendix and Motion
for Leave to Proceed in Forma Pauperis by Federal Express mail, on the Clerk of the
Supreme Court, Supreme Court Building, 1 First Street, N.E., Washington, D.C.

20543 on the 14th day of May, 2021. The above-mentioned documents were also
electronically filed on the Supreme Court of the United States’ Electronic Filing
System. At the same time, copies of same were forwarded by first class mail to:
Patricia S. Dodszuweit, Clerk
United States Court of Appeals
For the Third Circuit
21400 United States Courthouse
601 Market Street
Philadelphia, P.A. 19106-1790
Mark E. Coyne, Esq.
Chief, Appeals Division
United States Attorney’s Office
970 Broad Street, Suite 700
Newark, NJ 07102-2535

